JULY 30, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




      NASA COULD IMPROVE ANALYSES AND
 COORDINATION IN SUPPORT OF THE JOINT PLANNING
  AND DEVELOPMENT OFFICE TO DEVELOP THE NEXT
    GENERATION AIR TRANSPORTATION SYSTEM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-019 (ASSIGNMENT NO. A-08-004-00)
Final report released by:



  signed
Debra D. Pettitt
Acting Assistant Inspector General for Auditing




Acronyms

AA           Associate Administrator
ARMD         Aeronautics Research Mission Directorate
FAA          Federal Aviation Administration
FFC          Future Flight Central
FY           Fiscal Year
GAO          Government Accountability Office
IWP          Integrated Work Plan
JPDO         Joint Planning and Development Office
LaRC         Langley Research Center
NPR          NASA Procedural Requirements
NRC          National Research Council
OI           Operational Improvement
OIG          Office of Inspector General
OMB          Office of Management and Budget
PA&E         Program Analysis and Evaluation
PDM          Program Decision Memorandum
R&D          Research and Development
SCAP         Strategic Capabilities Assets Program


                                                        REPORT NO. IG-09-019
JULY 30, 2009




                                                                                          OVERVIEW

          NASA COULD IMPROVE ANALYSES AND COORDINATION
         IN SUPPORT OF THE JOINT PLANNING AND DEVELOPMENT
             OFFICE TO DEVELOP THE NEXT GENERATION AIR
                       TRANSPORTATION SYSTEM

                                                                                            The Issue

  In December 2003, Congress authorized development of the Next Generation Air
  Transportation System (NextGen) in Public Law 108-176, “Vision 100—Century of
  Aviation Reauthorization Act,” December 12, 2003. NextGen will replace the Nation’s
  existing air transportation system by 2025 to accommodate an expected tripling of air
  travel.

  NASA has a significant role in NextGen development. Vision 100 named the Agency to
  the NextGen Senior Policy Committee. The Committee provides policy guidance for
  NextGen’s plans, identifies resource needs, and makes legislative recommendations for
  the new system. Subsequently, in 2006 and 2007, NASA reformulated its aeronautics
  research programs to align with NextGen as directed by the “NASA Authorization Act of
  2005,” December 30, 2005.

  Vision 100 also established the Joint Planning and Development Office (JPDO) and
  directed it to develop and carry out an integrated development plan and to oversee
  research and development (R&D) on the new system. JPDO’s September 30, 2008,
  comprehensive NextGen development plan defined 203 R&D activities needed to
  develop the new system. Of the 203 R&D activities, NASA leads 44 (22 percent) and
  supports 37 (18 percent). Of the 81 total R&D activities that NASA leads or supports,
  one weather-related support activity is delegated to the Science Mission Directorate 1 and
  the remaining R&D activities to the Aeronautics Research Mission Directorate (ARMD).

  Our overall audit objective was to determine whether NASA was working effectively
  with JPDO to accomplish NextGen development. Specifically, we determined whether

        •    ARMD’s program and project management provided adequate control over and
             accountability for the NASA-led NextGen R&D activities; and


  1
      We did not review the one weather-related R&D activity delegated to the Science Mission Directorate.
      We limited our review to the 44 NASA-led R&D activities delegated to the Aeronautics Research
      Mission Directorate.



REPORT NO. IG-09-019
                                                                                       OVERVIEW



        •   NASA had sustained aeronautics research capabilities identified as necessary for
            NextGen development.

     Details of the audit’s scope and methodology are in Appendix A.

     Results

     Overall, we determined that NASA had taken some actions to work effectively with
     JPDO to accomplish NextGen development. NASA implemented an organizational
     structure to support JPDO R&D activities, assigning responsibility to accomplish
     NextGen R&D activities to ARMD. ARMD reformulated programs and projects to
     execute its NextGen responsibilities, developed program and project plans that support
     JPDO’s plans, assigned responsibility and defined supervisory positions to support the
     accomplishment of those plans, and established project plan milestones and schedules to
     ensure progress toward NextGen objectives.

     However, concurrent with those actions in support of NextGen, when faced with
     impending budget reductions, ARMD eliminated or reduced three aeronautics research
     capabilities that JPDO and NRC had identified as critical for achieving NextGen goals.
     This resulted in delayed or canceled milestones in two NASA-led projects and affected
     FAA’s development of critical NextGen technologies. ARMD may have been able to
     minimize the impact on NextGen development, had it conducted benefit-cost analyses
     and coordinated more effectively with JPDO and FAA on the consequences of its
     decisions. Processes implemented by JPDO in 2008—research transition teams and a
     Web-based Joint Planning Environment—should improve coordination and management
     of NextGen technical and schedule risks.

     NASA’s Participation in JPDO Processes. In 2008, JPDO implemented two
     processes—an analysis of R&D activities and research transition teams—that allow
     JPDO to manage the work scope and risk of R&D activities. In March and April 2008,
     NASA researchers participated in the analysis of R&D activities with JPDO. The
     analysis identified the scope of work for each R&D activity and allowed the partners to
     address areas that were not included in NASA or FAA project plans. NASA personnel
     also serve on the research transition teams with JPDO and FAA personnel. The teams
     include researchers, planners, and implementers that work to effectively transfer research
     products from NASA to FAA. Effective transfer of research products lowers the risk that
     NASA research products will not meet FAA’s technical or schedule needs. In May 2008,
     JPDO implemented a Web-based application, the Joint Planning Environment, that
     allows JPDO to communicate planning information to NextGen partners, to integrate
     research products from the partners, and to manage NextGen technical and schedule
     risks.

     NASA’s participation with JPDO on the NextGen Senior Policy Committee, the analysis
     of R&D activities, the research transition teams, and the Joint Planning Environment
     application provided adequate control over and accountability for the NASA-led


ii                                                                         REPORT NO. IG-09-019
OVERVIEW



  NextGen R&D activities. Therefore, additional control and accountability for NASA-led
  R&D activities were not needed within ARMD.

  ARMD Reduced Aeronautics Research Capabilities without Adequate Analyses or
  Coordination. We found that NASA’s decision to eliminate or reduce certain
  aeronautics research capabilities resulted in delayed or canceled milestones in two NASA
  projects and affected FAA’s development of critical NextGen technologies.

  In 2006, ARMD senior management began reevaluating the Directorate’s priorities and
  restructured ARMD’s programs and projects to focus on long-term, cutting-edge research
  (i.e., fundamental research) in anticipation of severe budget reductions. The ARMD
  budget decreased from $673 million in FY 2006 to $447 million in FY 2009, a 34 percent
  decrease.

  At the same time that ARMD was reevaluating its priorities, JPDO and the National
  Research Council (NRC) identified three specific research capabilities as critical for
  achieving NextGen goals: (1) a Boeing 757 (B-757) aircraft and flight test components of
  the Simulation-to-Flight Program, (2) wake turbulence research, and (3) the Future Flight
  Central (FFC). ARMD management recommended, and NASA approved, eliminating
  the B-757 flight test capability by October 2006, reducing wake turbulence research, and
  placing the FFC in standby status. However, we found that ARMD did not conduct
  adequate analyses prior to recommending the changes, despite JPDO and NRC
  identifying the capabilities as critical for achieving NextGen goals. In light of the
  competing priorities—NASA’s and NextGen’s—ARMD officials should have conducted
  a benefit-cost analysis to support their recommendation and should have coordinated
  more effectively with JPDO and FAA in order to minimize the impact on NextGen
  development. The research transition teams implemented by JPDO in 2008 are intended
  to facilitate more effective coordination and management of technical and schedule risks.

                                                               Management Action

  In our June 26, 2009, draft of this report, we recommended that the Associate
  Administrator for ARMD establish policy that ARMD conduct and document a benefit-
  cost analysis regarding NASA’s investment decisions concerning major capabilities that
  are needed for NextGen. Analyses should be in accordance with Office of Management
  and Budget Circular No. A-94, “Guidelines and Discount Rates for Benefit-Cost Analysis
  of Federal Programs,” October 29, 1992, which recommends that a benefit-cost analysis
  be used as a management tool when considering changes in Government programs or
  projects. NASA policy should also require ARMD to use JPDO’s research transition
  teams to coordinate investment decisions regarding major capabilities that are needed for
  NextGen.

  In response to the draft report, the Associate Administrator for ARMD concurred in
  principle with the recommendation to establish policy or procedures, or both, to ensure
  that ARMD conducts and documents benefit-cost analyses in accordance with OMB


REPORT NO. IG-09-019                                                                          iii
                                                                                      OVERVIEW



     Circular A-94. The Associate Administrator stated that the scope of a benefit-cost
     analysis may be limited because “changes may be required in such a short time,” but that
     “ARMD will document the justification for the change.” We consider management’s
     proposed action to be responsive. The recommendation is resolved and will be closed
     upon completion and verification of management’s corrective action.

     The Associate Administrator for ARMD concurred with our recommendation to establish
     policy for using JPDO’s research transition teams to coordinate investment decisions and
     stated that the process and structure of the research transition teams, which include
     oversight from both NASA and FAA officials, satisfies the recommendation. ARMD and
     JPDO have instituted quarterly meetings to discuss strategic issues, and ARMD will use
     the quarterly meetings as a venue to coordinate ARMD investment decisions. We
     consider management’s actions to be responsive, and the recommendation is closed. (See
     Appendix C for the full text of management’s comments.)




iv                                                                        REPORT NO. IG-09-019
JULY 30, 2009




                                                         CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 5

  RESULTS
      ARMD Reduced Aeronautics Research Capabilities without
        Benefit-Cost Analyses or Adequate Coordination ___________ 6

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls _____________________________ 21
      Prior Coverage _______________________________________ 22

  APPENDIX B
      JPDO Memorandum ___________________________________ 23

  APPENDIX C
      Management Comments _______________________________ 25

  APPENDIX D
      Report Distribution ___________________________________ 28




REPORT NO. IG-09-019
JULY 30, 2009




                                                                    INTRODUCTION


Background

  Next Generation Air Transportation System (NextGen) Legislation. Public Law
  106-398, “The Floyd D. Spence National Defense Authorization Act for Fiscal
  Year 2001,” established the Presidential Commission on the Future of the United States
  Aerospace Industry. The Commission was formed to study the importance of the
  domestic aerospace industry to our future economic and national security and to identify
  actions needed to ensure the future health of the industry. The Commission, in its final
  report dated November 18, 2002, recommended transformation of the existing air
  transportation system as a national priority.

  Public Law 108-176, “Vision 100—Century of Aviation Reauthorization Act,”
  December 12, 2003, also known as Vision 100, authorized transformation of the Nation’s
  air transportation system to NextGen by 2025. Vision 100 established the Joint Planning
  and Development Office (JPDO) to execute NextGen planning and development. JPDO
  is a joint initiative of the Departments of Transportation, Commerce, Defense, and
  Homeland Security; NASA; and the White House Office of Science and Technology
  Policy. The NextGen Senior Policy Committee, also established by Vision 100, provides
  policy guidance for NextGen development plans, identifies resource needs, and makes
  legislative recommendations for the new system.

  JPDO Plans. On June 13, 2007, JPDO issued the “Concept of Operations for the Next
  Generation Air Transportation System,” Version 2.0, to provide a common vision of how
  NextGen will operate in 2025 and beyond. The Federal Aviation Administration (FAA)
  reported that the existing system would not be sufficient to meet the anticipated demand
  for air travel or changes in the industry. In 2007, over 700 million passengers used the
  system, and FAA forecasts over 1 billion passengers by 2015. As JPDO pointed out in
  various planning documents, NextGen is expected to do more than just increase
  capacity—enhancements are also envisioned in the areas of security, safety, and aircraft
  noise and emission reduction.

  JPDO issued two development plans. The “Research and Development Plan for the Next
  Generation Air Transportation System FY 2009 - FY 2013,” August 31, 2007, details
  requirements for needed NextGen technologies and identifies responsibilities of each
  agency. The “Next Generation Air Transportation System Integrated Work Plan: A
  Functional Outline” (IWP), Version 1.0, September 30, 2008, documents the
  comprehensive NextGen development plan. The Plans include the following elements:

      •   Operational improvements (OIs). OIs describe a specific operational
          transformation needed or an improved level of performance. An OI is realized



REPORT NO. IG-09-019                                                                         1
                                                                                                  INTRODUCTION



               using the results from one or more research and development (R&D) activities.
               The IWP states a target completion date for each OI.

           •   R&D activities for research or technology development. For each R&D activity,
               the IWP describes the desired outcome and expected completion date, the OI the
               activity supports, the lead agency, and any supporting agencies. The IWP defines
               203 R&D activities, of which NASA leads 44 (22 percent) and FAA and other
               participating agencies lead 159 (78 percent). NASA is a supporting agency for
               37 R&D activities.

    Aeronautics Research Mission Directorate (ARMD) Execution of NextGen. The
    “NASA Authorization Act of 2005,” December 30, 2005, required NASA to align
    aviation research projects to provide direct support for NextGen goals. Of the 44 NASA-
    led R&D activities, NASA delegated one weather-related activity to the Science Mission
    Directorate 2 and the remaining activities, as well as overall NextGen responsibility, to
    ARMD. ARMD implemented an organizational structure for executing NextGen that
    reflects the intent of Office of Management and Budget (OMB) Circular No. A-123,
    “Management’s Responsibility for Internal Control,” December 21, 2004. Specifically,
    ARMD took the following actions:

           •   Reformulated its programs in 2006 and 2007 to align with NextGen. 3

           •   Developed program and project plans that support the Agency’s NextGen
               objective.

           •   Defined program and project management positions and assigned responsibilities
               to those positions:
                   o A Program Director oversees program portfolio formulation,
                     implementation, evaluation, and integration of results with other
                     ARMD/NASA programs.
                   o A Principal Investigator is responsible and accountable to the Program
                     Director for the technical objectives and content of the project and for the
                     planning and execution of the project.
                   o A Project Scientist is responsible and accountable to the Principal
                     Investigator for the technical content, integrity, innovativeness, and long-
                     term vision of the project and ensures that the highest technical standards
                     are exhibited by the project.

    2
        The audit did not review the weather-related R&D activity delegated to the Science Mission Directorate.
    3
        According to “A Guide to the Project Management Body of Knowledge, Third Edition,” 2004, published
        by the Project Management Institute, Inc., which describes project management principles and best
        practices, a program is a group of related projects managed in a coordinated way to obtain benefits and
        control not available from managing them individually. The Guide also defines a project as a temporary
        endeavor undertaken to create a unique product, service, or result.



2                                                                                        REPORT NO. IG-09-019
INTRODUCTION



                                  o A Project Manager is responsible and accountable to the Principal
                                    Investigator for developing the project plan and for overseeing the
                                    execution of the project with primary responsibility for project fiscal
                                    performance.
                                  o An Associate Principal Investigator is responsible and accountable to the
                                    Principal Investigator for technical content and task plan contract
                                    execution of a specific research topic area.

         •                  Established project plan milestones and schedules. Each research activity is a
                            project plan milestone. The project plan includes a planned completion date, or
                            schedule, for each milestone. Milestones and schedules are regularly reviewed by
                            program and project management.

  ARMD Budgets. As shown in Figure 1, ARMD’s budget decreased from FY 2004
  through FY 2009. From FY 2009 through FY 2013, ARMD budgets are projected to
  increase slightly.

                              Figure 1. Enacted and Planned ARMD Budgets, FYs 2004 through 2013


                           $900

                           $800

                           $700

                           $600
     Dollars in Millions




                           $500

                           $400

                           $300

                           $200

                           $100


                                    2004    2005    2006     2007     2008 2009         2010     2011     2012     2013
                                                                       Fiscal Year
                                              Source: Office of Inspector General (OIG) analysis of data provided by ARMD
                                                                                     and the President’s Budget for FY 2009




REPORT NO. IG-09-019                                                                                                          3
                                                                                        INTRODUCTION



    Three ARMD programs provide direct support of NextGen: Airspace Systems, Aviation
    Safety, and Fundamental Aeronautics. The Aeronautics Test Program provides indirect
    support to NextGen. Figure 2 shows the four programs’ FY 2008 budget, totaling
    $511.7 million.

                   Figure 2. Programs Funded by the FY 2008 ARMD Budget


                                                           Aviation Safety
                                Aeronautics Test           Program
                                Program                    $66.6 million
                                $75.1 million              (13 percent)
                                (15 percent)


                                                                        Airspace Systems
                                                                        Program
                                                                        $100.1 million
                                                                        (20 percent)
                       Fundamental
                       Aeronautics
                       Program
                       $269.9 million
                       (52 percent)



                                        Source: OIG analysis of the President’s Budget for FY 2009


    In FY 2007, ARMD reported to FAA that approximately 68 percent of its total budget
    from FY 2007 through FY 2013 will be expended in direct support of NextGen R&D.
    Figure 3 displays the dollar amounts reported by NASA to FAA.




4                                                                              REPORT NO. IG-09-019
INTRODUCTION



                                  Figure 3. ARMD’s Direct Support of NextGen as Reported to FAA
                                                    FY 2007 through FY 2013

                           $450

                           $400

                           $350

                           $300
     Dollars in Millions




                           $250

                           $200

                           $150

                           $100

                           $50


                                      2007        2008        2009        2010        2011        2012         2013
                                                                       Fiscal Year
                                    Source: OIG analysis of data provided by ARMD and the President’s Budget for FY 2009


Objectives

  Our overall audit objective was to determine whether NASA was working effectively
  with JPDO to accomplish NextGen development. Specifically, we determined whether
              •            ARMD’s program management provided adequate control over and
                           accountability for NASA-led NextGen R&D activities and
              •            NASA sustained aeronautics research capabilities identified as necessary for
                           NextGen development.

  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




REPORT NO. IG-09-019                                                                                                       5
                                                                                                          RESULTS




                                                         ARMD REDUCED AERONAUTICS
                                                             RESEARCH CAPABILITIES
                                                             WITHOUT BENEFIT-COST
                                                             ANALYSES OR ADEQUATE
                                                                    COORDINATION

               From 2006 through 2008, ARMD eliminated or reduced three aeronautics research
               capabilities: (1) a Boeing 757 (B-757) aircraft and flight test components of the
               Simulation-to-Flight Program, (2) wake turbulence research, and (3) the Future
               Flight Central (FFC). We found that NASA’s decision to eliminate or reduce these
               capabilities resulted in delayed or canceled milestones in two NASA projects and
               affected FAA’s development of critical NextGen technologies.

               ARMD officials recommended the elimination of the B-757 and reductions in the
               other two capabilities after reevaluating the Directorate’s priorities and restructuring
               ARMD’s programs and projects to focus on long-term, cutting-edge research. OMB
               recommends that agencies considering program or project changes conduct benefit-
               cost analyses to ensure well-informed decision-making. However, we found that
               ARMD did not conduct adequate analyses prior to recommending the changes,
               despite JPDO and the National Research Council (NRC) identifying the capabilities
               as critical for achieving NextGen goals. In light of the competing priorities—
               NASA’s and NextGen’s—ARMD officials should have conducted benefit-cost
               analyses to support their recommendations and should have better coordinated with
               JPDO and FAA in order to minimize the impact on NextGen development. The
               research transition teams implemented by JPDO in 2008 are intended to facilitate
               more effective coordination.


ARMD Reevaluation of Directorate Priorities

    ARMD senior officials stated that, in 2006 and 2007, they reevaluated the Directorate’s
    priorities and restructured ARMD’s programs and projects to focus on long-term, cutting-
    edge research (i.e., fundamental research) in anticipation of severe budget reductions.
    The ARMD budget decreased from $673 million in FY 2006 to $447 million 4 in
    FY 2009, a 34 percent decrease. The reevaluation of priorities resulted in ARMD’s
    recommendations to eliminate or reduce some of its aeronautics research capabilities.
    Specifically, the elimination of the B-757 flight test capability by October 2006 reduced
    ARMD’s annual operating costs by $11 million. The reduction in the wake turbulence

    4
        Budget amounts are expressed in “direct equivalent” dollars. NASA changed its accounting methodology
        during the fiscal years under examination. To make valid budget year comparisons, budgets must be
        adjusted to equivalent dollars to eliminate the effect of inconsistent accounting methodology. Therefore,
        we obtained NASA’s estimate of “direct equivalent” dollars as the basis for our analyses.



6                                                                                        REPORT NO. IG-09-019
RESULTS



  research capability was realized by reducing the number of researchers by 64 percent.
  ARMD eliminated operating costs of approximately $10 million annually by converting
  the FFC from an active to a standby status.


OMB Benefit-Cost Analysis

  OMB Circular No. A-94, “Guidelines and Discount Rates for Benefit-Cost Analysis of
  Federal Programs,” October 29, 1992, recommends, but does not require, that a benefit-
  cost analysis be used as a management tool when considering changes in Government
  programs or projects. A benefit-cost analysis is recommended to help meet the goal of
  promoting efficient resource allocation through well-informed decision-making. The
  Circular describes four elements of a benefit-cost analysis: policy rationale, explicit
  assumptions, evaluation of alternatives, and benefit-cost verification. As a best business
  practice, management should have analyzed the aeronautics research capabilities using
  the four elements in OMB Circular A-94 and documented the results.


National Needs for NASA Capabilities in Support of NextGen

  In 2006, at the same time that ARMD was reevaluating its priorities and aligning its
  projects to directly support JPDO and NextGen, JPDO and the NRC identified the B-757
  flight test capability, wake turbulence research, and the FFC as critical for achieving
  NextGen goals. They communicated their concerns to ARMD and provided
  documentation to support NextGen’s need for the capabilities. However, ARMD
  officials were unable to provide official documentation showing that they had given due
  consideration to the national needs identified by JPDO. In light of JPDO’s concerns,
  ARMD needed to ensure that it was making the best decision possible and should have
  conducted and documented a benefit-cost analysis following OMB Circular A-94
  guidelines before deciding to eliminate or reduce NASA’s aeronautics research
  capabilities.

  In addition, ARMD could have improved its communication and coordination with JPDO
  and the FAA concerning these capabilities in order to minimize the impact on NextGen
  development. As discussed in the following sections, we found that NASA’s decision to
  eliminate the B-757, reduce the wake turbulence research capability, and place the FFC
  in standby status resulted in delayed or canceled milestones in two NASA projects and
  affected FAA’s development of critical NextGen technologies.


Processes Implemented by JPDO Should Improve Coordination
  and Management of Risks

  In 2008, JPDO implemented two processes—an analysis of R&D activities and research
  transition teams—that allow JPDO to manage the work scope and risk of R&D activities.


REPORT NO. IG-09-019                                                                           7
                                                                                                        RESULTS



    In March and April 2008, NASA researchers participated in the analysis of R&D
    activities with JPDO. The analysis identified the scope of work for each R&D activity
    and allowed the partners to address areas that were not included in NASA or FAA project
    plans. NASA personnel also serve on the research transition teams with JPDO and FAA
    personnel. The teams include researchers, planners, and implementers who work
    together to ensure effective transfer of research products from NASA to FAA, which
    lowers the risk that NASA research products will not meet FAA’s technical or schedule
    needs. In May 2008, JPDO implemented a Web-based application, the Joint Planning
    Environment, that allows JPDO to communicate planning information to NextGen
    partners, to integrate research products from the partners, and to manage NextGen
    technical and schedule risks.


B-757 Flight Test Capability

    In July 2006, ARMD senior management officials recommended that the Agency dispose
    of a uniquely modified B-757 aircraft because ARMD had not identified it as a critical
    need for any ARMD projects. The Agency agreed with ARMD’s recommendation and
    decided to dispose of the aircraft. However, the decision eliminated a key capability to
    perform NextGen flight test research, which the Agency did not address in the
    memorandum that directed disposal of the aircraft.

    The B-757 was the centerpiece of the Simulation-to-Flight Program at Langley Research
    Center (LaRC). The Simulation-to-Flight Program was developed to streamline the
    transition of advanced new technologies from the simulation environment to the flight
    environment. The success of the Program relied on the existence of two nearly identical
    integration laboratories, one for simulation research and one for flight integration.
    Simulation-to-Flight increased the efficiency and reduced the cost of technology
    development and validation by using common hardware and software, procedures, and
    processes for both piloted simulation and flight testing.

    NASA purchased the B-757 for $24 million in 1994 and invested heavily in
    modifications, the cost of which cannot be fully determined, 5 to develop the B-757 into a
    unique platform for testing flight hardware and software in a real-world environment. In
    addition to the B-757, a team of 58 civil service and 43 contract personnel with
    specialized skills to plan and conduct flight test research supported the flight test
    component.

    5
        NASA’s cost records did not provide a full accounting of the Agency’s investment in the B-757. We
        found documentation of additional investment in two areas of modification totaling between $37 million
        and $68 million. Specifically, our review of program documents to estimate the cost of the aircraft
        modifications found documentation of modifications costing between $24 million and $55 million for the
        Aft Flight Deck and $13 million for data systems and flight control modifications. We were unable to
        estimate civil service labor costs for designing the modifications. In September 2006, when the B-757
        aircraft was transferred to Dryden Flight Research Center, the NASA Equipment Management System
        reported a capitalized value of $28.4 million. However, the cost of aircraft modifications made since
        1994 were generally expensed as part of each year’s annual cost of operations.


8                                                                                      REPORT NO. IG-09-019
RESULTS



  On July 19, 2006, the former Associate Administrator (AA) for ARMD issued a
  memorandum to the LaRC Director explaining the Agency’s decision to dispose of the
  B-757. The memorandum stated:
          None of the Aeronautics research proposals identified a need for the B-757 because
          sufficient capabilities, facilities, and flight research assets already exist elsewhere
          within NASA, other Government agencies, and industry. Thus, the NASA Aeronautics
          Program has no identified need for the B-757 in the foreseeable future.

  The memorandum further directed that LaRC deobligate any aeronautics funding
  associated with contractor support of the B-757 beyond September 30, 2006.

  In a separate memorandum, also dated July 19, 2006, the NASA Associate Administrator
  stated that the Agency had considered funding the B-757 and LaRC’s overall Simulation-
  to-Flight capability as part of the NASA Strategic Capabilities Assets Program (SCAP,
  formerly the Shared Capability Assets Program). However, the Agency concluded that
  the capability did not meet “SCAP investment criteria because there are no known NASA
  or national requirements for the capability.” The NASA Associate Administrator
  directed that the B-757 receive no Agency funding in FY 2007 and beyond. The
  memorandum instructed that LaRC “transition the aircraft into flyable storage at Dryden
  Flight Research Center as quickly and cost effectively as possible.”

  ARMD Analyses. ARMD senior management did not adequately document its analysis
  of the need for the B-757. ARMD’s July 2006 memorandum to the LaRC Director
  explained that the flight test capability was being eliminated because there were no
  known NASA or national requirements.

  However, prior to the final Agency decision regarding disposal, ARMD received the
  JPDO white paper, “Justification of National Assets,” July 12, 2006, identifying the
  B-757 as a critical asset needed for NextGen. The AA for ARMD stated that the issues
  raised in the JPDO white paper did not justify maintaining the B-757, but ARMD
  officials were unable to provide official documentation showing that they had given due
  consideration to the national needs identified in the JPDO white paper. Instead, ARMD
  officials provided an undated issue paper prepared by a former Program Analysis and
  Evaluation (PA&E) analyst near the time of the disposal recommendation. The undated
  issue paper did not meet OMB Circular A-94 criteria that recommend an evaluation of
  possible interactions between benefits and costs and other Government activities. The
  analysis evaluated costs to NASA but did not evaluate the interactions between those
  costs and the benefits to NextGen development that were stated in the JPDO white paper.

  PA&E Analysis. PA&E is responsible for conducting independent studies and analyses
  in support of NASA policy, program, and budget decisions. On July 21, 2006—2 days
  after the former AA issued the memorandum explaining the decision to eliminate the
  B-757 at LaRC—PA&E issued Program Decision Memorandum (PDM) #24, “Eliminate
  B-757 from the LaRC Simulation-to-Flight Capability.” PDM #24 states that “the
  simulation-to-flight capability at LaRC does not meet Agency/SCAP investment criteria



REPORT NO. IG-09-019                                                                                9
                                                                                                               RESULTS



     because there are no known NASA or national requirements for the capability.”
     However, PA&E did not conduct an independent analysis to support the PDM’s
     conclusions. The PA&E analyst who prepared the PDM stated that PA&E did nothing to
     independently verify or validate those conclusions, which were provided by the former
     AA for ARMD. The analyst described his role as “limited to putting [the former AA’s]
     conclusions into English.”

     An independent analysis would have disclosed the national need for the B-757 and also
     that NASA project management planned to use the B-757’s capabilities in meeting the
     Agency’s commitments to NextGen. Draft project plans, which had been reformulated
     for the Airspace Systems Program, the Aviation Safety Program, and the Fundamental
     Aeronautics Program in March 2006, included requirements for Simulation-to-Flight and
     flight test capability. Those requirements were subsequently removed from the draft
     plans to be consistent with ARMD’s move to fundamental research.

     An undated PA&E issue paper, provided to us by ARMD in March 2009, concluded that
     there were no known NASA or national requirements for the B-757 flight test capability.
     To determine the validity and reliability of the issue paper, we interviewed the former
     analyst who prepared the document and a PA&E Deputy Director. The former analyst
     acknowledged that key conclusions in the issue paper had been provided to PA&E by
     ARMD officials and the former director of SCAP.

     National Need for the B-757 Flight Test Capability. On July 12, 2006, prior to the
     ARMD memorandum explaining the Agency’s decision to dispose of the B-757, JPDO
     issued its white paper with recommendations to NASA. JPDO’s cover memorandum
     (see Appendix B) states that the recommendations are “to ensure no irreversible decisions
     are made with regard to the National assets concerned or with regard to the talented
     workforce assembled by NASA to support these facilities.” JPDO’s white paper
     recommended that NASA retain the B-757 or another appropriate jet transport as part of
     the larger Simulation-to-Flight capability.

     JPDO’s white paper states that “all federal organizations researching new air traffic
     management concepts, including NASA, will need to evaluate/validate these concepts via
     experiments on aircraft,” and specified seven areas where flight test validation will be
     needed. 6 The JPDO white paper also states that there is no other Federal facility close to
     replicating ARMD’s Simulation-to-Flight capability. According to the white paper, other
     Federal agencies have flight research aircraft and research simulators, but those assets are
     not linked together as seamlessly as ARMD’s Simulation-to-Flight capability. The white
     paper notes that the B-757’s value is in the capabilities of the research avionics and
     systems that are installed in the aircraft and their alignment with piloted (i.e., real-time)

     6
         The JPDO white paper specified that validation would be needed for (1) separation assurance between
         aircraft and the air navigation service provider, (2) validation of aircraft trajectory prediction methods,
         (3) concepts for reducing separation standards, (4) wake vortex prediction methods, (5) integrated flight
         deck system concepts, (6) precision flight path management concepts, and (7) integrated vehicle health
         management.



10                                                                                           REPORT NO. IG-09-019
RESULTS



  and “batch” simulators. 7 The white paper further states that the Federal Government
  does not have any other single-engine general aviation aircraft used for research to
  improve general aviation operations in the National Airspace System. The white paper
  notes that “once such multi-disciplinary teams of highly specialized personnel are
  dispersed, it will likely take many years to reestablish the competency.”

  Impact on NextGen Research. NASA’s July 2, 2008, quarterly review of the Airspace
  Project (under the Airspace Systems Program) reported one delayed milestone and one
  canceled milestone because flight test capability was unavailable. The review report
  stated that one milestone, “Flight test evaluation of an airborne situation awareness-based
  application,” was delayed for 2 years because NASA aircraft had been removed from
  service. 8 The review report also stated that the milestone requiring flight validation of
  low noise guidance was canceled in 2007 when ARMD removed the aircraft from LaRC.

  An official within FAA’s Advanced Technology and Prototyping Group confirmed that
  ARMD’s actions to eliminate the Simulation-to-Flight capability affected FAA’s
  development of critical NextGen technologies because FAA had planned to use the
  capability for testing. FAA officials described the following critical technologies
  affected by ARMD’s decision:

         •   required area navigation and required navigation performance technologies,
             which are critical for quieter descent procedures that burn less fuel;

         •   satellite-based air traffic control, paired with automatic dependent surveillance-
             broadcast technology on an aircraft, which are critical for safer, closer separations
             between aircraft and more direct routing; and

         •   an electronic cockpit tool that gives pilots a moving map display of their position
             and is critical for using global positioning systems, which will replace the existing
             Air Navigation Services.

  The official stated that the FAA will develop the technologies since they are critical for
  NextGen.

  Inadequate Coordination with JPDO and the FAA. Although the JPDO white paper
  specified research areas and articulated why NASA should retain the Simulation-to-Flight
  capability, ARMD did not adequately coordinate the July 2006 decision to eliminate the
  B-757 with JPDO or the FAA. Specifically, we found that ARMD did not provide

  7
      A “batch” simulator is an off-line version of the simulation, commonly provided to researchers for their
      desktop workstation to generate and verify the real-time simulation and to test candidate control laws
      prior to implementation. The off-line, or batch, version uses identical code as the real-time simulation for
      the simulation models.
  8
      The Airspace Project subsequently reported that the milestone had been successfully completed, without
      conducting the flight test, in September 2007. The Milestone Completion Memorandum, dated
      September 4, 2008, stated that “scheduling and execution of this flight test rests solely with the FAA and
      Airservices Australia.”



REPORT NO. IG-09-019                                                                                                 11
                                                                                                         RESULTS



     alternative solutions for accomplishing NextGen activities that JPDO reasoned were best
     suited for the B-757, NASA had not provided an official response to JPDO’s concerns,
     and ARMD had not conducted a credible benefit-cost analysis. The AA for ARMD
     stated that the Directorate contacted FAA during 2006 to inquire whether FAA would
     provide direct funding for the aircraft, but documentation provided by ARMD personnel
     did not specify the date of inquiry or the FAA official contacted. ARMD officials also
     stated that the Agency identified five alternative aircraft that could be used for flight
     testing in place of the B-757. This too was not documented.

     A documented benefit-cost analysis could have supported the Agency’s decision to
     eliminate the B-757. In addition, better coordination by ARMD with JPDO and the FAA
     on the Agency’s decisions concerning major capabilities needed for NextGen research
     could have minimized the impact on NextGen development. The processes implemented
     by JPDO in 2008—the research transition teams and the Web-based Joint Planning
     Environment—should improve coordination and management of NextGen technical and
     schedule risks.


Wake Turbulence Research Capability

     An aircraft generates wake in its trail as an inevitable product of lift. As the weight of an
     aircraft increases, the stronger its wake; the greater an aircraft’s wingspan, the longer the
     wake persists. Wake can be a safety hazard when smaller aircraft follow relatively larger
     aircraft too closely. That hazard, known as wake turbulence, requires aircraft to maintain
     safe separation distances from other aircraft. The FAA mandates separation distances to
     minimize risk from wake turbulence.

     Researchers conduct wake turbulence research to determine whether FAA separation
     distances can be safely reduced. Safe reduction of separation distance will increase air
     traffic capacity—a fundamental requirement for NextGen. To explore minimum safe
     separation distances between aircraft under different conditions, researchers measure
     wake vortices and conduct wake vortex modeling. Researchers investigate and develop
     high-resolution sensors to measure aircraft wake vortices as well as evaluating how
     changing meteorological conditions affect wake vortices. Wake vortex modeling predicts
     the basic characteristics of the wake vortices trailing the aircraft as a function of the
     generating aircraft and ambient atmospheric conditions.

     From FY 2005 through FY 2008, ARMD reduced its wake turbulence research capability
     64 percent by decreasing the number of wake turbulence researchers in the Airportal
     Project—from 22 researchers (10 civil service personnel and 12 contract personnel) in
     2005 to eight researchers by the end of FY 2008. 9 The wake turbulence researchers


     9
         On September 30, 2008, ARMD awarded an NRA that included five additional researchers in the
         proposal, increasing NASA’s level of support for wake turbulence research from three to eight
         researchers.



12                                                                                     REPORT NO. IG-09-019
RESULTS



  support six distinct research areas, 10 which support Airportal Project plan milestones
  related to six NextGen OIs.

  ARMD Analysis. Wake turbulence research was reduced to align NASA’s research with
  ARMD’s policy for conducting long-term, cutting-edge research. The AA for ARMD
  explained that wake vortex research was conducted because the Directorate had expertise
  in that area. However, the AA stated that while ARMD’s wake vortex research collected
  empirical data, it was not advancing cutting-edge research.

  In 2006, program and project managers, at the direction of ARMD senior management,
  revised draft project plans to cut the number of project plan milestones related to wake
  turbulence research. Those revisions resulted in the elimination of contractors and a
  reduction in the number of civil service researchers. ARMD officials stated that the
  former AA for ARMD’s decision to shift resources to other research areas was based on
  an independent assessment of ARMD programs, which noted that ARMD devoted too
  many resources to wake turbulence research. The officials explained that, if the
  Directorate had continued the same level of support for wake research, other gaps in
  NextGen development might have appeared. However, officials had no analysis to show
  that other gaps in NextGen might appear.

  ARMD could not provide a documented benefit-cost analysis in support of its decision to
  reduce the wake turbulence research capability. Since the analysis was not documented,
  we cannot substantiate that ARMD followed the Circular A-94 recommendation for an
  evaluation of the interaction between benefits and costs and other Government activities.

  National Need for Wake Turbulence Research. NASA and FAA program officials
  stated that before the wake turbulence research capability was reduced, ARMD had a
  robust, system-level wake turbulence research capability. The officials explained that the
  capability provided a unique interface between the users of wake turbulence research
  (airlines, pilot unions, FAA regulators) and wake turbulence researchers. The interface
  provided the researchers an understanding of National Airspace System limitations,
  which allowed the researchers to address data quality assurance in fundamental research
  and early designs. The officials said that most of the system-level wake turbulence
  research capability has been significantly reduced because of reductions to the ARMD
  capability. A NASA program official familiar with NASA and FAA wake turbulence
  research stated that NASA’s researchers are no longer able to support FAA research
  efforts that NASA and the FAA agreed to conduct jointly, such as wake turbulence
  encounter and mitigation at airport arrival.

  An FAA wake turbulence program official stated that the wake turbulence research
  capability being established by FAA would not fully replace the capability formerly
  provided by NASA in the medium-term research area. The official described medium-

  10
       (1) Wake turbulence mitigation for departure; (2) wake turbulence mitigation for arrivals;
       (3) crosswind/reduced separations for departure operations; (4) recategorization; (5) work to establish
       acceptable levels of wake encounter; and (6) collision risk modeling and analysis capability.



REPORT NO. IG-09-019                                                                                             13
                                                                                                       RESULTS



     term as research that takes 3 to 6 years to transition “to the FAA systems engineering
     organization.” The official explained that the interface NASA provided between wake
     turbulence researchers and the users of that research facilitated technology transfer to
     FAA in the medium-term research area. The official characterized NASA’s medium-
     term wake turbulence research as a cohesive force that kept researchers from multiple
     organizations focused on technology transfer to FAA for introduction into FAA’s
     systems engineering process.

     In “Wake Turbulence: An Obstacle to Increased Air Traffic Capacity,” January 2008, the
     NRC states that unless the separation distance can be reduced through wake turbulence
     research, other NextGen technologies will have less of an impact on departure and arrival
     capacity. The NRC also reported:
            The Committee to Conduct an Independent Assessment of the Nation’s Wake
            Turbulence Research and Development Program found that the wake vortex problem
            does present a real impediment to increased air traffic capacity, something reflected in
            most of the documentation that has been drafted to date by the JPDO.

     The NRC report, referring to capabilities prior to the staff reductions, noted that NASA
     expertise was well aligned for conducting medium- to long-term fundamental research,
     including wake vortex modeling and wake vortex mitigation work. The report also states
     that FAA did not have the necessary expertise and that no other Government agency
     appeared to possess the capability or capacity for wake turbulence research. The report
     recommended that NASA continue to conduct medium- to long-term wake vortex
     modeling and mitigation work at a level of effort sufficient to achieve NextGen goals.

     Impact on NextGen Research. Reducing the wake turbulence research capability has
     resulted in two effects. First, a research gap will occur because FAA will not fully
     replace the capability formerly provided by NASA. NRC’s January 2008 report states
     that Federal investment does not place sufficient priority on wake turbulence research to
     achieve the results called for by NextGen goals. The report also states that air
     transportation system capacity could be significantly enhanced by applying the results of
     robust and focused wake vortex research and development. The report recommended
     that NASA continue to conduct medium- to long-term research because of its wake
     turbulence expertise and that operators and controllers be included in evaluating wake
     turbulence-related changes to the air transportation system. Second, the portion of wake
     turbulence research assumed by FAA has been delayed by approximately 2 years. This
     delay occurred in FYs 2006 through 2008 as FAA established its wake turbulence
     research capability.

     Inadequate Coordination with JPDO and the FAA. When NASA reduced its wake
     turbulence capability from 2006 to 2008, there was not an effective mechanism in place
     to coordinate wake turbulence research with JPDO and the FAA, which resulted in a
     2-year delay to the NextGen research just discussed. Better coordination by ARMD with
     JPDO and the FAA on the Agency’s decisions concerning major capabilities needed for
     NextGen research could have minimized the impact on NextGen development. The


14                                                                                      REPORT NO. IG-09-019
RESULTS



  research transition teams implemented by JPDO in 2008 should improve coordination
  among NASA, JPDO, and the FAA.


FFC Capability

  The FFC, located at Ames Research Center, is an air traffic control and air traffic
  management simulation facility designed to help solve the capacity problems of the
  Nation’s airports. The facility can project a 360-degree, full-scale, real-time simulation
  of an airport for air traffic control and air traffic management tests. The simulation
  shows how air traffic controllers, pilots, and airport personnel participate to optimize
  expansion plans, operating procedures, and new technologies. From FY 2001 through
  FY 2006, NASA used the FFC to test and evaluate aircraft surface movement decision
  support tools; aviation safety issues, such as runway incursions; and commercial airport
  design and operations issues. FFC operating costs are approximately $10 million
  annually. In FY 2006, the FAA made a one-time contribution of $2.5 million to share
  that cost. 11

  ARMD senior management discontinued NASA’s use of the FFC at the end of FY 2006
  and eliminated the $10 million annual operating cost of the facility. In FY 2007, the FFC
  was converted from an active to a standby status. The conversion reassigned facility
  personnel with specialized skills to other programs at Ames Research Center. During
  FY 2007, the FFC operated as a part-time, reimbursable facility with a 40 percent
  utilization rate. In early FY 2007, a NASA paper, “Programmatic and Other Impacts
  Associated with Disposition Options,” commented on the FFC’s low utilization rate:
  “With the unexpected stoppage of ARMD use of the facility as a research tool, it is
  understandable why FFC suddenly appears to be underutilized. It is recommended that
  FFC be given reasonable time to recover its business base.” However, FFC utilization
  fell to zero during FY 2008.

  ARMD Analysis. In November 2006, ARMD analyzed FFC operating costs and
  utilization rates to support its decision to place the FFC in standby status. The analysis
  stated that neither Ames Research Center or ARMD was aware of FAA requirements for
  the FFC. However, ARMD’s analysis did not follow the OMB Circular A-94
  recommendation to evaluate possible interactions between benefits and costs and other
  Government activities and did not adequately evaluate requirements identified in the
  JPDO white paper.

  National Need for the FFC. In its July 2006 white paper, JPDO states that it is crucial
  for the Federal Government to retain the FFC’s capabilities in airport surface operations
  models and associated real-time simulation software, as well as the experienced
  personnel who understand those models and software. The white paper notes that the

  11
        According to the NASA official responsible for the FFC, FAA contributed $2.5 million as a one-time
       contribution in FY 2006. FAA did not provide funding to NASA to operate the FFC after FY 2006.



REPORT NO. IG-09-019                                                                                         15
                                                                                            RESULTS



     FFC provides a means to test surface density operations throughout development under
     conditions similar to an actual airport, adding that achieving critical NextGen goals
     depends on “significant improvements in the performance of surface operations at the
     busiest airports in addition to complete integration of surface operations with
     arrival/departure operations at the airport.” JPDO also notes that NASA is expected to
     perform key research on surface operations concepts, but does not address funding for
     this research.

     Impact on NextGen Research. Placing the FFC in standby status potentially affects the
     testing of surface density operations throughout development. In 2006, ARMD senior
     officials removed research milestones from Airportal Project draft project plans that
     would have supported basic research of surface density operations identified in the IWP
     as OI-339, “Integrated Arrival/Departure and Surface Traffic Management for
     Metroplex.” The OI addresses increasing regional capacity by effectively managing
     aircraft arrivals and departures, runway use, and aircraft sequencing. Project-level
     personnel had intended to validate those milestones using the FFC. ARMD senior
     officials eliminated support for the capability and removed those milestones from
     Airportal Project draft project plans in 2006. The FFC was placed in standby status after
     ARMD eliminated its support.

     FAA’s research on the air traffic management system may be delayed by the FFC’s
     status, as the FAA will need to allocate funding to activate the facility. An official within
     FAA’s Air Traffic Systems Concept Development Group stated that, if the FFC is
     unavailable for FY 2009, FAA would not be able to test technology during development
     under airport-like conditions. The official explained that because of the lack of that
     testing capability, research on the NextGen air traffic management system would be
     delayed.

     Inadequate Coordination with the FAA and JPDO. Although the ARMD analysis
     included $175,000 in funding for 2007 from an FAA rudder study, it did not address
     funding from FAA research initiatives that need the FFC. ARMD’s coordination with the
     FAA and JPDO did not determine the specific FAA research initiatives described in the
     JPDO white paper. ARMD should have identified FAA’s research initiatives and
     planned schedule for using the FFC for NextGen research. That information would have
     been useful to FFC management in planning future facility usage and revenues. Future
     coordination and communication will be facilitated by the research transition teams that
     JPDO implemented in 2008.




16                                                                           REPORT NO. IG-09-019
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Associate Administrator for ARMD should establish policy or
procedures, or both, to ensure that ARMD conducts and documents benefit-cost analyses in
accordance with OMB Circular A-94 before recommending the elimination or significant
reduction of major capabilities that are needed for NextGen.

  Management’s Response. The AA for ARMD concurred in principle and stated that
  ARMD will establish policies or procedures, or both, to ensure that appropriate benefit-
  cost analyses are conducted. However, the AA also stated that “it is possible for
  circumstances to exist where there is not adequate time to conduct such analyses.” In
  those cases, the AA stated that “ARMD will document the justification for the change.”
  The AA estimated that policies or procedures would be developed by October 1, 2009.

  Evaluation of Management’s Response. Management’s proposed action is responsive.
  The recommendation is resolved and will be closed upon completion and verification of
  management’s corrective action.

Recommendation 2. The Associate Administrator for ARMD should establish policy or
procedures, or both, to ensure that ARMD coordinates investment decisions regarding major
capabilities that are needed for NextGen through the JPDO’s research transition teams.

  Management’s Response. The AA for ARMD concurred and stated that the process and
  structure of the research transition teams, which include oversight from both NASA and
  FAA officials, satisfies this recommendation. In addition, ARMD and JPDO have
  instituted quarterly meetings to discuss strategic issues. ARMD will use the quarterly
  meetings as a venue to coordinate ARMD investment decisions.

  Evaluation of Management’s Response. Management’s proposed action is responsive.
  Based on the actions taken and procedures in place, we have closed the recommendation.




REPORT NO. IG-09-019                                                                         17
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from January 2008 through June 2009 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Objective Methodology

  Our overall objective was to determine whether NASA was working effectively with
  JPDO to accomplish NextGen development. In April 2008, we revised the subobjectives
  to reflect initial fieldwork and discussed the revisions with ARMD management. The
  revised subobjectives were to determine whether (1) ARMD’s program management
  provided adequate control over and accountability for NASA’s NextGen R&D activities
  and (2) NASA was sustaining aeronautics research capabilities identified as necessary for
  NextGen development.

  Overall Methodology. To gain an overall understanding of NextGen and NASA’s role
  in NextGen development, we reviewed Public Law 108-176 (Vision 100) and the
  following JPDO planning documents:

      •   “Concept of Operations for the Next Generation Air Transportation System,”
          Version 2.0, June 13, 2007;

      •   “Research and Development Plan for the Next Generation Air Transportation
          System FY 2009 to FY 2013,” August 31, 2007; and

      •   “Next Generation Air Transportation System Integrated Work Plan: A Functional
          Outline,” Version 1.0, September 30, 2008.

  We interviewed the JPDO Director; the JPDO Deputy Director; JPDO Division
  Directors; the AA for ARMD; ARMD Program Directors for the Airspace Systems,
  Aviation Safety, and Fundamental Aeronautics Programs; and ARMD Resource
  Managers.

  Objective 1 Methodology. We obtained requirements from NASA Procedural
  Requirements (NPR) 7120.5C, “NASA Program and Project Management Processes and
  Requirements,” March 22, 2005; NPR 7120.8, “NASA Research and Technology


REPORT NO. IG-09-019                                                                          19
                                                                                      APPENDIX A



     Program and Project Management Requirements,” February 5, 2008; NPR 8000.4, “Risk
     Management Procedural Requirements,” February 1, 2007; NASA Policy Directive
     1000.0A, “Governance and Strategic Management Handbook,” August 1, 2008; OMB
     Circular No. A-123, “Management’s Responsibility for Internal Control,” December 21,
     2004; Executive Order 13419, “National Aeronautics Research and Development,”
     December 20, 2006; and JPDO's “NextGen Budget Formulation Guidance—FY 2010,”
     February 15, 2008. We used “A Guide to the Project Management Body of Knowledge,
     Third Edition,” 2004, published by the Project Management Institute, Inc., to identify
     project management best practices.

     We evaluated risk assessments and risk management plans for four projects in programs
     that support NextGen. The evaluation compared project documentation as of July 2008
     against requirements. The four selected projects were

        •   the Airspace Project (Airspace Systems Program),

        •   the Airportal Project (Airspace Systems Program),

        •   the Integrated Vehicle Health Management Project (Aviation Safety Program),
            and

        •   the Subsonic Rotary Wing Project (Fundamental Aeronautics Program).

     We reviewed JPDO IWP 1.0 and determined that NASA leads 44 R&D activities
     (22 percent) and supports 37 (18 percent) of the 203 total R&D activities. Of the 81 total
     R&D activities that NASA leads or supports, one weather-related support activity is
     delegated to the Science Mission Directorate and the remaining R&D activities to
     ARMD. We did not review the R&D activity delegated to the Science Mission
     Directorate. We limited our review to the 44 NASA-led R&D activities delegated to the
     Aeronautics Research Mission Directorate.

     We selected four projects to evaluate ARMD's procedures to manage project risk. We
     interviewed Principal Investigators, Project Managers, Project Scientists, Associate
     Principal Investigators, and Resource Managers. We also reviewed program and project
     plans. We identified delayed or canceled milestones for the four R&D projects from the
     July 2008 quarterly review reports. We also analyzed crosswalks provided to us by
     ARMD for the Airspace Systems Program and the Subsonic Rotary Wing Project,
     January/February 2008. We interviewed FAA program officials at LaRC and FAA
     Headquarters.

     We reviewed three reports by the NRC: “NASA Aeronautics Research: An Assessment”
     (2008), “Aeronautics Innovation: NASA’s Challenges and Opportunities” (2006), and
     “Decadal Survey of Civil Aeronautics: Foundation for the Future” (2006). We also
     reviewed external reviews of the Airspace Systems Program, the Aviation Safety
     Program, and the Fundamental Aeronautics Program, which were issued in February and
     March 2008.


20                                                                         REPORT NO. IG-09-019
APPENDIX A



  Objective 2 Methodology. We identified requirements for NASA aeronautics research
  capabilities from the JPDO white paper, “Justification of National Assets,” July 12, 2006;
  “NASA’s Challenges and Opportunities,” NRC, 2006; “Decadal Survey of Civil
  Aeronautics: Foundation for the Future,” 2006; and “Wake Turbulence: An Obstacle to
  Increased Air Traffic Capacity,” NRC, January 2008.

  We reviewed program and project draft and final plans and quarterly review reports. For
  the B-757, we also reviewed the President’s Budget for FY 2009 and documentation of
  NASA’s decision to dispose of the aircraft. Documentation included memorandums from
  the former NASA Associate Administrator, July 19, 2006, and the former AA for
  ARMD, July 19, 2006, and PDM #24, “Eliminate B-757 from the LaRC Simulation-to-
  Flight Capability,” PA&E, July 21, 2006. We interviewed ARMD senior management,
  ARMD program and project officials, program analysts in PA&E, and the former
  Director, SCAP. We obtained cost data of the B-757 from the Office of the Chief
  Financial Officer at LaRC and the B-757 purchase agreement. We inspected remaining
  assets at LaRC in September 2008. We interviewed the former Director, Flight Research
  Services Directorate, at LaRC. For wake vortex research, we also reviewed an FAA
  analysis of wake vortex research gaps and delays, March 2008, and analyzed R&D
  activities related to wake vortex research. For the FFC, we reviewed NASA’s “ARC
  Future Flight Central – Disposition Assessment,” November 2006, and analyzed FFC
  usage rates and resource requirements.

  Use of Computer-Processed Data

  We did not rely on computer-processed data to perform this audit.


Review of Internal Controls

  We evaluated the organization, policies, and procedures that ARMD put in place to
  support JPDO’s efforts to develop NextGen using OMB Circular A-123 and the
  Government Accountability Office (GAO) publication, “Internal Control Management
  and Evaluation Tool” (GAO-01-1008G, August 2001). Circular A-123 defines five
  control standards and requires management comply with those standards. The GAO tool
  provides managers guidance to implement the control standards and to determine whether
  improvements are needed.

  Our evaluation found that NASA has taken actions to work effectively with the JPDO to
  accomplish NextGen development. NASA assigned NextGen responsibility to ARMD,
  reformulated ARMD program and projects to align with or relate to NextGen, developed
  program and project plans, defined supervisory positions and assigned responsibilities to
  those positions, established project plan milestones and schedules, and reviewed project
  plan milestones and schedules regularly. However, we found that ARMD senior officials
  failed to follow OMB Circular A-123 control standards or Circular A-94 best practices
  for benefit-cost analyses. ARMD senior officials eliminated an aeronautics research


REPORT NO. IG-09-019                                                                           21
                                                                                   APPENDIX A



     capability without documenting their analysis. NASA officials did not follow OMB
     Circular A-94 and did not ensure that benefit-cost analyses supporting ARMD’s decision
     were documented. ARMD senior officials reduced two other aeronautics research
     capabilities based on cost analyses but did not evaluate other relevant criteria in
     accordance with Circular A-94. Documentation and compliance with established
     procedures are required by Circular A-123 control standard, “Control Activities.”
     Implementation of this report’s recommendations should correct the identified
     weaknesses.


Prior Coverage

     During the last 5 years, the GAO, the Department of Transportation OIG, and the NRC
     have issued seven reports of particular relevance to the subject of this report.
     Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov;
     unrestricted Department of Transportation OIG reports can be accessed at
     http://www.oig.dot.gov/; unrestricted NRC reports can be accessed at
     http://www.nap.edu/.

     Government Accountability Office

     “Next Generation Air Transportation System: Status of Systems Acquisition and the
     Transition to the Next Generation Air Transportation System” (GAO-08-1078,
     September 2008)
     “Next Generation Air Transportation System: Progress and Challenges Associated with
     the Transformation of the National Airspace System” (GAO-07-25, November 2006)

     Department of Transportation Office of Inspector General

     “Joint Planning and Development Office: Actions Needed to Reduce Risks with the Next
     Generation Air Transportation System” (AV-2007-031, February 12, 2007)

     National Research Council

     “Wake Turbulence: An Obstacle to Increased Air Traffic Capacity” (2008)
     “NASA Aeronautics Research: An Assessment” (2008)
     “Decadal Survey of Civil Aeronautics: Foundation for the Future” (2006)
     “Aeronautics Innovation: NASA’s Challenges and Opportunities” (2006)




22                                                                      REPORT NO. IG-09-019
APPENDIX B




                                                       JPDO MEMORANDUM


  In July 2006, JPDO issued a white paper, “Justification of National Assets,” with
  recommendations to NASA. The following JPDO cover memorandum accompanied the
  white paper.




REPORT NO. IG-09-019                                                                  23
              APPENDIX B




24   REPORT NO. IG-09-019
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-09-019                         25
              APPENDIX C




26   REPORT NO. IG-09-019
APPENDIX C




REPORT NO. IG-09-019   27
                                                                                APPENDIX D




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Associate Administrator for Aeronautics Research
     Director, Ames Research Center
     Director, Langley Research Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




28                                                                    REPORT NO. IG-09-019
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Nora Thompson, Project Manager
   Jobenia Odum, Management Analyst
   James Pearce, Senior Auditor
   Robert T. Rose, Senior Auditor
   Elizabeth Shifflett, Report Process Manager




REPORT NO. IG-09-019                                                         29
                                                                                         JULY 30, 2009
                                                                        REPORT No. IG-09-019




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Quality Assurance
Director, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
